                                                     Pension Benefit Guaranty Corporation
        If   you want to report or dIscuss
                                                     Office of Inspector General
         confIdentIally any Instance of
mIsconduct, fraud, waste, abuse, or mIsmanagement,
                   please contact
        the   offIce   of Inspector   general.
                    telephone:
      the Inspector general’s hotlIne
                 1-800-303-9737
          the deaf or hard of hearIng,
            dIal frs (800) 877-8339
          and gIve the hotlIne number
                the relay operator.
                       web:
  http://oIg.pbgc.gov/InvestIgatIon/detaIls.html
                    or wrIte:
    pensIon benefIt guaranty corporatIon
          offIce of Inspector general
                  po box 34177
         washIngton, dc 20043-4177
                                                              SemiAnnual Report to Congress
                                                                October 1, 2008 - March 31, 2009
                               Pension Benefit Guaranty Corporation
	
                                                                Office of Inspector General
                                                  1200 K Street, NW, Washington, DC 20005-4026


                                                                                  April 30, 2009


The Board of Directors
Pension Benefit Guaranty Corporation


I am submitting the Pension Benefit Guaranty Corporation Office of Inspector General’s Semiannual
Report to Congress, as required by the Inspector General Act of 1978, as amended. The report
summarizes accomplishments for the period October 1, 2008 through March 31, 2009. The Act
requires that you transmit this report, along with the management report prepared by the Pension
Benefit Guaranty Corporation (PBGC), to the appropriate congressional committees.

The PBGC Office of Inspector General demonstrates our accountability to the Board, to Congress, and
to the public through this semiannual report of our activities. During this six-month period, we issued
four audit reports with 21 recommendations for improvement. We completed nine investigations and
resolved fifty complaints. We referred two cases to the Department of Justice and four individuals to
PBGC management for corrective action. Results of our work during this period included an arrest,
recovery of $31,000 from a convicted murderer, and two administrative actions. Working jointly with
PBGC, we were able to close 43 prior audit recommendations, many of which resulted in the correction
of long-standing issues.

The audits issued during this period demonstrate PBGC’s accountability for the $63 billion in assets for
which it is responsible. Our audit of the Single-Employer and Multiemployer Program Funds showed
that the financial statements prepared by PBGC were presented fairly, in all material respects, in
conformity with accounting principles generally accepted in the United States of America. While our
financial statement audit work also disclosed significant deficiencies in internal control (as discussed in
the attached report), users can rely on PBGC’s financial statements as a basis for decision-making.

PBGC relies heavily on the efforts of its contractors and must be willing to hold those contractors
accountable for compliance with contract terms. The OIG expends a significant portion of our
efforts performing audits of PBGC contractors. We are working collaboratively with PBGC to resolve
a long-standing backlog of contract audit recommendations and we have the commitment of
PBGC management to identify better ways of ensuring contractor accountability, going forward. In
discussing whether PBGC will pursue collection of questioned costs, PBGC management notes that
contracting officers do not have a duty to enforce each and every term in a contract and have broad
discretion for resolving audit findings. Although OIG recommendations are not considered “closed”
until OIG agrees that PBGC managerial corrective actions are “adequate,” PBGC policy holds that
OIG agreement with the contracting officer’s decision is not a prerequisite for closure of contract
administration and questioned cost recommendations.
We understand the broad discretion granted to contracting officers in determining
whether to pursue collection of questioned costs. Nevertheless, we are troubled by
PBGC’s past practice of using the contracting officer’s discretion in ways that result in
contractors being paid, often the full amount, when they furnish personnel that fail to
meet minimum education and experience requirements as established by contract.
When contracts are clear about the consequences of providing personnel who fail
to meet minimum education and experience requirements – “dollars associated with
personnel found not to meet the labor category qualifications will be disallowed”
– we question the reasoning of choosing not to hold contractors accountable by
pursuing repayment from the overpaid contractor who benefitted. Further, we remain
concerned that acceptance of unqualified personnel may provide certain contractors
with a competitive advantage over other potential bidders that propose only
personnel meeting or exceeding contract requirements.

We appreciate the cooperation you, your staffs, and the PBGC management team have
provided to the OIG. We look forward to continuing this productive and professional
working relationship as we continue to help PBGC meet its important challenges.


Sincerely,




Rebecca Anne Batts
Inspector General




PBGC OFFICE OF INSPEC TOR GENERAl
Table of Contents
letter to the Board of Directors


Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


Introduction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
       The Pension Benefit Guaranty Corporation

       The Office of Inspector General


Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
       Governance
       Stewardship
       Procurement and Contracting
       PBGC Business Model
       Information Technology

Other OIG Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16
       Access to Information

       Management Decisions


Other Office of Inspector General Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17
       Review of Proposed Statutory and Regulatory Changes
       Inspector General Reform Act of 2008
       Assistance to Other Federal Entities
       Other Activities

Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..19
       Cross-Reference to Reporting Requirements of the Inspector General Act
       Summary of Audit and Investigative Activities
       Results of Reports Issued
       Summary of Reports Older Than 6 Months for Which Management
          Decision Has Not Been Achieved
       Previously Reported Significant Recommendations for which Corrective
          Action Has Not Been Completed




                                                SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009                                       iii
PBGC OFFICE OF INSPECTOR GENERAl
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments
of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector General (OIG)
for the period October 1, 2008 through March 31, 2009. To achieve our mission under
the Inspector General Act of 1978, we must continually evaluate major challenges and
issues to identify vulnerabilities to fraud, abuse, and inefficient and ineffective activities.
During the past six months, we focused on issues that PBGC is facing and will face over
the next several years. Communicating our results to the Board of Directors (the Board),
the Acting Director, and to Congress through this report helps us achieve our goal of
providing an independent and objective voice in support of protecting the pension
benefits of American workers.

Highlights of the significant audit and investigative activity during this period include:
• Governance— As part of our audit of PBGC’s implementation of its new investment
policy, we performed work to address a whistleblower’s concerns about the former
PBGC Director’s unusual and active participation in multiple contracting activities and
his contacts with potential bidders (see pages 5 -7).
• Stewardship— We issued 4 reports related to the annual financial statement audit,
including the 16th consecutive unqualified opinion. We also reported three significant
internal control deficiencies, and issued a detailed limited distribution internal control
report. Our investigative results included recovery of $31,000 from a convicted
murderer (see pages 7 – 12).

• PBGC’s Business Model— At the request of U.S. Senator Herb Kohl, Chairman of the
Senate Special Committee on Aging, we initiated a review of PBGC’s preparedness for a
potential influx of pension plans (see pages 14-15).
• Information Technology — An investigation found that a contractor employee had
used an unencrypted, un-password-protected flashdrive to store personally-identifiable
information (PII) regarding PBGC participants. The contractor lost the flashdrive and
failed to report the loss, all in violation of PBGC’s policy to protect PII (see pages15-16).

The Appendix to this report presents statistical information about OIG audits and
investigations and a cross-reference to the reporting requirements of the Inspector
General Act.




                                  SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009           1
2   PBGC OFFICE OF INSPECTOR GENERAl
Introduction
The Pension Benefit Guaranty Corporation
The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA), as
amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly-owned Federal government
corporation to administer the pension insurance program. ERISA requires that PBGC:
(1) encourage the continuation and maintenance of voluntary private pension plans, (2)
provide for the timely and uninterrupted payment of pension benefits to participants and
beneficiaries, and (3) maintain premiums at the lowest level consistent with carrying out
PBGC’s obligations.

For about 44 million Americans, PBGC provides assurance that their retirement benefits
will be paid, up to a statutory limit. PBGC protects the pensions of participants in certain
defined benefit pension plans (i.e., plans that promise to pay definitely determinable
retirement benefits). Such defined benefit pension plans may be sponsored individually
or jointly by employers and unions. PBGC is now responsible for the pensions of about 1.3
million people.

As stated in its Annual Report, during FY 2008 PBGC managed about $63 billion in
assets and paid about $4.3 billion in benefits to more than 640,000 current retirees.
The Corporation reports having sufficient liquidity to meet its obligations for a number
of years, despite significant deficits in both the single-employer and multiemployer
programs. Neither program at present has the resources to satisfy all of the benefit
obligations already incurred, much less future obligations likely to be assumed.

The Office of Inspector General                                                                     OIG provides an

                                                                                                     objective and
Our Office of Inspector General (OIG) was created under the 1988 amendments to the
Inspector General Act of 1978. We provide an independent and objective voice that helps            independent voice.
the Congress, the Board of Directors, and PBGC protect the pension benefits of American
workers. like all Offices of Inspector General, the PBGC OIG is charged with preventing
and detecting fraud, waste, abuse, and mismanagement; conducting and supervising
independent audits and investigations; and recommending policies to promote sound
economy, efficiency, and effectiveness.

To provide value, we focus our work on the challenges facing PBGC. We strive to target
the highest risk areas and emphasize timely reporting of results. We determine what we
will investigate and audit and how we will conduct those investigations and audits. We
determine our own priorities and have had our own independent legal counsel since
1990. Our audit and investigative staff is competent and experienced, with professional
backgrounds in other Offices of Inspector General, independent accounting firms,
and federal and state criminal investigative agencies. We independently respond to
Congressional requests and initiate contact with Congress, as warranted.
The OIG is in full compliance with the Quality Standards for Federal Offices of Inspector
General, published by the President’s Council on Integrity and Efficiency (PCIE) and
the Executive Council on Integrity and Efficiency (ECIE). Our audit work is performed in


                                SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009          3
    compliance with Generally Accepted Government Auditing Standards, issued by the
    Government Accountability Office (GAO) and our investigations are performed in
    compliance with PCIE and ECIE Quality Standards for Investigations.
    The PBGC OIG is organizationally independent. The Inspector General reports
    directly to the highest level of PBGC governance, the PBGC Board and to Congress. In
    executing our independent oversight role, we perform a range of legally-mandated
    work (e.g., the annual financial statement audit and the annual Federal Information
    Security Management Act review) as well as a body of discretionary work.




4   PBGC OFFICE OF INSPEC TOR GENERAl
Management Challenges
PBGC faces the challenge of dealing with the financial turmoil that is affecting much
of the American investment community. In early 2008, the Corporation adopted a new
investment strategy to diversify its portfolio and increase its investment in stocks and in
alternative asset classes. The following months brought a high level of activity from many
parts of the Corporation, including the appointment of a Chief Investment Officer.

Although the current turbulence in our economy will mean a challenging environment
for the remainder of FY 2009 and beyond, PBGC states it has the resources to meet its
commitments to America’s retirees for many years to come. Nevertheless, the economic
recession is creating investment challenges for PBGC as well as the defined benefit           We identified PBGC’s top
pension plans it insures.
                                                                                              Management Challenges:
In the coming months, PBGC may be called to address an influx of large defined benefit        • Governance
pension plans, if companies can no longer afford to maintain the plans. PBGC’s leadership
                                                                                              • Stewardship
has been proactive on several fronts. For example, PBGC’s senior leadership has been
engaged in contingency planning for a potential wave of pension plan trusteeships             • Business Model
in the near future. The focus is on ensuring that PBGC’s core functions — insurance
programs and benefits administration — have the necessary resources (including staff,         • Information Technology
budget, and information technology) to address the incoming workload. Additionally,           • Procurement
PBGC consistently monitors the conditions of multiple high-profile industrial sectors
including retail, newspaper, pharmaceutical and auto. Many companies across a wide
range of sectors – manufacturing, banking, health care, and retail – have suffered sharp
declines in investment and business profitability.

OIG has identified five broad PBGC management challenge areas -- Governance,
Stewardship, PBGC’s Business Model, Information Technology, and Procurement and
Contracting. While we conducted some audit and investigative work in each of the five
areas, during this six month period, we concentrated on the areas of procurement and
contracting, governance and stewardship. One of our major initiatives, our ongoing
audit of PBGC’s implementation of its new investment policy, crosses all three of these
management challenges. The results of our efforts are detailed below.


1.      Governance
PBGC’s governance structure comprises the Board of Directors, their Board
Representatives, a Presidentially-appointed Director, and Congressional oversight. Other
elements of governance include PBGC’s system of internal control, its clearly articulated
authority to act, and the policies and procedures under which PBGC operates. PBGC
governance is complex and requires those who are charged with its oversight to view the
Corporation from a number of differing perspectives. Oversight by the PBGC Board, PBGC
management and the OIG is critical to effective corporate governance. Equally important
is the ethical tone set by PBGC leaders.




                                SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009         5
                        Audit of PBGC’s Implementation of Its Investment Policy

                        During the past six months, our office has focused much effort on our ongoing audit
                        of PBGC’s implementation of the investment policy adopted by the Board in February
                        2008. The objective of this audit was to identify the strengths and weaknesses of
                        PBGC’s approach to executing investment policy and to determine the effectiveness
                        of PBGC’s plan to identify and mitigate key risks that could affect investment
                        performance or limit anticipated benefits.

                        During the course of the audit, a whistleblower brought to our attention concerns
                        about multiple contracting activities in which the Director was taking an unusual and
                        active role. The former Director, who left office on January 20, 2009, served as PBGC’s
   PBGC Board           external “face.” He was responsible for representing PBGC before the investment
Responded Promply       community and others. He frequently communicated in person, by phone and by
                        email with numerous Wall Street investment firms, including some seeking to do
  to Our Interim        business with PBGC. At the same time, the former Director also participated directly in
     Report             drafting contract requirements and evaluation factors and selecting winning bidders,
                        including the selection of BlackRock, Goldman Sachs, and JPMorgan for strategic
                        partnership contracts to manage $2.5 billion in PBGC assets.

                        After the close of this semiannual period, but before issuance of this Semiannual
  PBGC Board
                        Report to Congress, we issued an interim audit report to the PBGC Board of Directors
  Responded             addressing the former Director’s dual roles as agency representative and procurement
                        official. The Board responded promptly and made commitments for appropriate
Promptly to Our
                        corrective actions, as needed. Our other work addressing PBGC’s implementation of
 Interim Report         its investment policy continues and will be reported in the next Semiannual Report to
                        Congress.

                        Ensuring Corrective Action for Open Audit Recommendations

                        Audit recommendations are the heart of any audit report. No matter how interesting
                        the findings may be, a report is not effective unless the recommendations are
                        implemented and the problems reported are fully addressed. At the request of
                        the House Committee on Oversight and Government Reform, we undertook a
                        comprehensive review of the status of outstanding audit recommendations and
                        identified 130 outstanding recommendations for corrective action that have not yet
                        been implemented by PBGC. We noted the following:

                          • Some recommendations were quite old; for example, the need to implement an
                            integrated financial management system was first reported twelve years ago, in
                            1997. The issue has been included in each subsequent year’s financial statement
                            audit, including the audit for FY 2008.
                          • As another example of a corrective action that is long overdue, recommendations
                            from an audit report issued in 2003 related to PBGC’s Premium Accounting System
                            are not scheduled to be completed until June 2010. While PBGC has initiated a
                            range of efforts to address this issue, significant challenges persist.




                    6   PBGC OFFICE OF INSPEC TOR GENERAl
  • Progress is being made on some old recommendations, however. For example, our
    FY 2004 financial statement audit included a recommendation for the development
    of a comprehensive procedures manual for processing and estimating premiums -
    an action that is scheduled to be completed sometime in the summer of 2009.
  • As good news, we noted that 50 of the 130 open recommendations were issued
    within the prior year and most of these 50 recommendations are in the process of
    being implemented.


Our recommendations focus on helping PBGC become more efficient and effective.
About three-fourths of the recommendations are intended to improve PBGC’s internal
controls or governance. As part of ensuring effective governance of PBGC, entities
charged with oversight should continue to emphasize implementation of outstanding
audit recommendations.

Congressional Oversight                                                                           OIG Kept Senate 


                                                                                                  Committe Staff 

Congress is an important part of oversight for both PBGC and the PBGC OIG. During
this semiannual period, we met with staff of the Senate Committee on Finance;                        Informed

Senate Committee on Health, Education, labor, and Pensions; and the Senate Special
Committee on Aging. In response to Chairman’s letters from these Committees, we
provided briefings about our ongoing work, including our review of the actions of the
former Director.

OIG Membership on PBGC Internal Control Committee

The Assistant Inspector General for Investigations (AIGI) provided insight gained
through his experience as a criminal investigator to the committee responsible for
oversight and accountability of PBGC internal controls. Effective control systems may
detect fraud or deliberate non-compliance with policies, regulations, or laws.


2. Stewardship
OIG’s work in the “Stewardship” area focuses primarily on PBGC’s overall financial
management and its stewardship of entrusted resources. Specific activities include
preventing fraud, detecting improper payments, protecting participant data, and
safeguarding assets of pension plans close to termination.

PBGC’s strategic plan outlines the “Stewardship” goal of exercising effective and efficient
stewardship of PBGC resources. OIG shares this goal and dedicates a large proportion of
resources to this challenge. Specifically, during the past six months we have:

  • completed the annual audit of PBGC’s financial statements, as required by the Chief
    Financial Officer’s Act, and
  • investigated matters that threatened PBGC resources, with results including
    recovery of stolen benefits and identification of a supervisory employee who
    engaged in fraud.


                                 SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009        7
                          Audit of the Pension Benefit Guaranty Corporation’s
                          Fiscal Year 2008 and 2007 Financial Statements
                          (AUD-2009-1/FA-08-49-1)

                          We contracted with an independent certified public accounting firm, Clifton
                          Gunderson llP, to audit the financial statements of the Single-Employer and
 PBGC Earned an           Multiemployer Program Funds administered by PBGC, as of and for the years ended
                          September 30, 2008 and 2007. The audit was performed in accordance with the
Unqualified Opinion       Generally Accepted Government Auditing Standards issued by GAO; OMB’s Bulletin
  on its Financial        No. 07-04, Audit Requirements for Federal Financial Statements, as amended; and the
                          methodology set forth in the GAO/PClE Financial Audit Manual.
    Statements
                          As a result of the audit of the Single-Employer and Multiemployer Program Funds
                          administered by PBGC, Clifton Gunderson reported that:

                            • The financial statements were presented fairly, in all material respects, in
                              conformity with accounting principles generally accepted in the United States of
                              America; and
                            • PBGC’s assertion about internal control over financial reporting (including
                              safeguarding assets) and compliance with laws and regulations, as of September
                              30, 2008, was fairly stated in all material respects.


                          By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-
                          sustaining. The audit report explained that PBGC reported net deficit positions
                          (liabilities in excess of assets) in both the Single-Employer and Multiemployer Funds.
                          Management based the Single-Employer Program estimate on data for fiscal years
                          ending in calendar year 2007. This data was obtained from filings and submissions to
                          the government and from corporate annual reports. Because subsequent adjustment
                          for economic conditions through September 30, 2008 (the date of the financial
                          statements) was not made, the exposure to loss for the Single-Employer Program as of
                          September 30, 2008 could be substantially different than reported. The report went on
                          to explain that PBGC’s net deficit and long-term viability could be further impacted by
                          certain other losses as a result of deteriorating economic conditions, the insolvency of
                          a large plan sponsor, or other factors.

                          Clifton Gunderson also identified, and summarized, three significant deficiencies.

                            •	­Entity-wide Security Program Planning and Management. PBGC made
                               significant progress in strengthening the design and implementation of their
                               entity-wide security management program. Such a program should be in place
                               to establish a framework and continuing cycle of activity to manage security risk,
                               develop security policies, assign responsibilities, and monitor the adequacy of
                               computer security related controls. It should also represent the foundation for an
                               entity’s security control structure and reflect senior management’s commitment
                               to addressing security risks. During FY 2008, PBGC management corrected four
                               prior years’ internal control weaknesses and made progress on others. However,

                      8   PBGC OFFICE OF INSPEC TOR GENERAl
   continued improvements are needed to resolve remaining control deficiencies.
   These deficiencies prevent PBGC from implementing effective security controls to
   protect its information from unauthorized access, modification, and disclosure.


 •	­Access Controls. PBGC is in the process of implementing a program to address
    access control weaknesses. Access controls should be in place to consistently limit,
    detect, or monitor access to computer programs, data, equipment and facilities.
    Such controls include both logical and physical security and are intended to
    protect against unauthorized data modification, disclosure, loss or impairment.
    PBGC has acknowledged that additional time will be required to fully address
    access control weaknesses. Until PBGC consistently implements all key elements
    of its information security program, PBGC will not have sufficient assurance
    that financial information and financial assets are adequately safeguarded
    from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or                Significant
    destruction.
                                                                                                 Deficiencies

                                                                                                Still Need To Be
 •	­Integrated Financial Management System. As reported in prior year audits, the
    risk of inaccurate, inconsistent, and redundant data is increased because PBGC                Corrected
    lacks a single integrated financial management system. The current system cannot
    be readily accessed and used by financial and program managers, and requires
    excessive manual processing and inefficient balancing to reconcile disbursements,
    collections, and general ledger data. In the short term, PBGC’s ability to accurately
    and efficiently record, accumulate, and summarize information required for
    internal and external financial reporting may be impacted.


The audit did not identify any instances of reportable noncompliance with tested laws
and regulations.

In responding to the report, PBGC management concurred with the recommendations
in the report, expressed appreciation for our acknowledgement of PBGC’s progress,
and committed to working with PBGC OIG in fully addressing the issues.

Report on Internal Controls Related to the
Audit of the Pension Benefit Guaranty Corporation’s
Fiscal Year 2008 and 2007 Financial Statements
(AUD-2009-2/FA-08-49-2)

This report on internal controls, prepared by Clifton Gunderson llP, provided a more
detailed discussion of the specifics underlying the three significant deficiencies
reported in the internal control section of the independent auditors report (AUD-2009­
1/FA-08-49-1) noted above. PBGC’s response to the internal control report indicated
management’s agreement with and intention to work diligently on correcting the
report’s findings and implementing recommendations.




                                SEMIANNUAl REPORT OF THE INSPEC TOR GENERAl—MARCH 2009      9
                          Audit of the Pension Benefit Guaranty Corporation’s
                          Fiscal Year 2008 and 2007 Special-Purpose Financial Statements
                          (AUD-2009-3/FA-08-49-3)

                          As part of the financial statements audit, we contracted with Clifton Gunderson llP to
                          audit PBGC’s reclassified balance sheets as of and for the years ended September 30,
                          2008 and 2007, and the related reclassified statements of net costs and changes in net
                          position for the years then ended.

                          PBGC prepares special-purpose financial statements for submission to the U.S.
                          Department of the Treasury and the U.S. Government Accountability Office (GAO)
                          through the Government-wide Financial Reporting System for GAO’s use in preparing
                          and auditing the Financial Report of the U.S. Government. The special purpose report
                          is not intended to comprise a complete presentation of PBGC’s financial statements.
                          Rather, these special-purpose financial statements link PBGC’s audited financial
                          statements to the Financial Report of the United States Government.

                          Fiscal Year 2008 Financial Statements Audit
                          Management letter
                          (AUD-2009-4/FA-08-49-4)

                          During the annual financial statements audit (AUD-2009-1/FA-08-49-1), our contract
                          independent certified public accounting firm, Clifton Gunderson llP, identified certain
                          less significant matters related to PBGC internal controls and operations that were not
                          included in the report on internal controls (AUD-2009-2/FA-08-49-2).

                          The management letter summarized Clifton Gunderson’s findings and
                          recommendations regarding those less significant matters and included the status of
                          prior years’ management letter recommendations. The Chief Financial Officer stated
                          that PBGC management agreed with the recommendations and was making progress
                          in addressing prior year recommendations.

                          PBGC Recovered $31,000 in Pension Benefits from Convicted Murderer

                          OIG criminal investigators completed an investigation that resulted in PBGC recovering
                          more than $31,000 in pension overpayments intended for a missing Pennsylvania
                          man. As we reported in our last semiannual report, the daughter of a man missing
                          since 1993 took her father’s PBGC benefit payments totaling at least $31,140 and then
  OIG and PBGC            spent the money.
Worked Together To
                          The OIG and the PBGC Office of the General Counsel (OGC) worked jointly to ensure
  Recover Funds           that PBGC suspended the missing participant’s monthly benefits. Further, OIG and the
                          OGC worked through the court to freeze the participant’s bank account to prevent
                          further withdrawals until the court ruled on PBGC’s petition to have the participant
                          declared dead. Because a missing person can be presumed dead after 7 years, neither
                          the participant’s estate nor his heirs were entitled to any of the overpaid pension



                     10   PBGC OFFICE OF INSPECTOR GENERAl
benefits after the presumed date of death. The court ruled in PBGC’s favor, allowing the
Corporation to recover from the daughter the benefits PBGC paid after the presumed
death date.

Because the daughter received a life sentence for an unrelated murder conviction and
PBGC could recover the overpaid benefits from bank proceeds, the local prosecutor
declined to pursue criminal charges related to the benefit theft. The OIG reported
the results of our investigation and the court’s declaration of the participant’s death
to the Social Security Administration, allowing clearance of that agency’s case on the
participant as well.

Human Resources Department Made Mistakes,
But Did Not Compromise Fair and Open Competition

As part of the Office of Personnel Management’s (OPM) human capital management
evaluation of PBGC’s human resources recruitment activities, OPM identified several
hiring actions that appeared to compromise fair and open competition. OPM referred
these potential violations of 5 USC §2302(b)(6) to the OIG for investigation. In addition,         OIG Addressed
the referral requested that the OIG determine if official hiring records were at risk              OPM’s Concerns
based on a past practice of shredding hiring documents.
                                                                                                  About PBGC Hiring
For one recruitment, we found the agency had improperly established an education                       Actions
requirement, but that no corrective action could be taken as the employee who had
been selected was no longer in that position.

For a second recruitment, we found that the Human Resources Department had not
adequately documented its analyses in developing a selective placement factor;
nevertheless, the factor was appropriate and did not improperly exclude other
applicants, including a number of veterans who had applied for the position. We also
confirmed that the recruitment period did not meet OPM’s recommended minimum
5-day period for job openings.

Finally, we concluded personnel records were no longer at risk for improper
destruction, as both the individual who had been shredding records and that
employee’s supervisor had left PBGC employment and shredding had been
discontinued.

Supervisory Employee Exploited lax Timekeeping Practices
to Perpetrate Fraud

An OIG investigation found a former PBGC supervisory employee provided false
information on a federal employment application and committed time and attendance
fraud that resulted in the employee’s receipt of more than $3,000 in pay for time that
she did not work. The former employee exploited lax timekeeping procedures and the
good will of subordinates, causing fraudulent overtime entries and leave omissions
from the timekeeping records. The report recommended that PBGC pursue collection
of the overpayment from the employee who is now a supervisor at another federal
agency. A management advisory addressing internal control issues will follow.

                                  SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009      11
                            Arrest Warrant Issued for Former Employee Who Stole laptops

                            With the assistance of local law enforcement in Greenville, South Carolina, we
                            located a former employee who stole two PBGC laptop computers upon terminating
                            employment with the agency. During an interview with the OIG, the former employee
                            confessed that she took the laptops. The Greenville County Sherriff’s Office recovered
                            the stolen property and returned it to the OIG. The former employee was arrested and
                            charged with receiving stolen property. The former employee failed to appear in court
                            for an initial appearance. As a result, the court issued a bench warrant for the former
                            employee’s arrest.

                            Employee Suspended for Misconduct

                            Based on a previous OIG investigation that found an employee forged his supervisor’s
                            signature on a PBGC document, PBGC management determined that the employee
                            failed to follow administrative rules and procedures and suspended the employee
                            from duty for one work day.


                            3.      Procurement and Contracting
                            PBGC relies heavily on the services of contractors to carry out its operations, a factor
                            that makes procurement and contracting a significant PBGC activity. In its FY 2009
                            Congressional budget submission, PBGC reported spending about two-thirds of
                            its annual operating budget through contracts. When base and option years are
                            considered, total obligations for PBGC’s active contracts are $820 million. In addition,
 Audit Reports With         between FYs 2001 and 2009, the dollar value of PBGC’s contracting activity more than
More Than $2 Million        doubled. This trend and volume of expenditures makes contract management a major
                            challenge for PBGC.
in Questioned Costs

   Remain Open              OIG continues to devote a significant portion of its resources to audits and reviews
                            of PBGC’s procurement and contracting activities. During the past six months, we
                            focused our efforts on the resolution of contract audit reports issued in prior periods.
                            As of March 31, 2009, there were 13 contract audit reports for which PBGC had not
                            completed action to implement OIG recommendations. While some reports had
                            languished without being addressed for several years (e.g., Report No. 2005-11/CA­
                            2004, issued in February, 2005), other reports were more recent. Overall, at the end
                            of this reporting period, 51 recommendations from contract audit reports remained
                            open, including 28 with questioned costs totaling over $2.1 million.

                            PBGC continues to work to implement our recommendations, submitting some
                            recommendation completion documentation after the close of this reporting period.
                            OIG is currently reviewing documentation involving 15 recommendations and about
                            $1 million of questioned costs.




                       12   PBGC OFFICE OF INSPECTOR GENERAl
OIG Concerns About Management Decisions Not to Disallow Costs

PBGC management places great emphasis on the contracting officer’s exercise of
business judgment in determining whether and to what extent the contracting
officer will (a) disallow questioned costs and (b) pursue recoupment. As part of our
joint effort to resolve the backlog of aged contract audits, OIG has given deference
to the contracting officer’s business judgment in many instances. However, when
the contracting officer’s judgment is not supported by valid evidence or when the                OIG Disagreed
contracting officer’s decision results in payments for items that are specifically not           with Some PBGC
allowed by contract terms, we will report our disagreement with the contracting
officer’s decision. The Inspector General Act of 1978, as amended, requires OIG to                Management
report on any significant management decision with which the Inspector General is in               Decisions
disagreement.

During the last six months, in at least two instances, PBGC issued letters to contractors
to settle audit recommendations without consulting with our office, even though such
consultation is required by PBGC Directive when recommended recoveries exceed
$100,000. While PBGC was able to rescind one of the letters, a response to the other
letter had already been received, with the result that PBGC accepted $3,544 in full
settlement of audit issues that included $114,225 in questioned costs. We disagreed
with PBGC’s decision not to pursue collection of questioned costs, where those
questioned costs relate to payment for amounts that were specifically unallowable
under the terms of the contract.

PBGC contracts contain clauses addressing the types of costs that will be disallowed.
For example, the contract noted above established minimum qualifications for
each category of labor under the contract and included the provision that “dollars
associated with personnel found not to meet the labor category qualifications will
be disallowed” (emphasis added). We questioned $27,566 paid to the contractor for
work done by a computer operator who advised that she had never graduated from
high school. The contractor provided PBGC a resume incorrectly stating that the
employee did have a diploma and PBGC paid the contractor at a rate based on the
employee having graduated from high school.

The contract between PBGC and the contractor gives clear notice about what is
supposed to happen if PBGC finds out that the contractor has provided an employee
who does not have the minimum education or experience – the dollars “will be
disallowed.” Nevertheless, even though PBGC agreed with OIG that the employee did
not have the required education, the Procurement Department (PD) determined that
“PD does not believe the government is due any consideration. Therefore, PD will not
pursue any of this portion of questioned cost.”

We disagree with PBGC’s decision in the example above and believe that PBGC should
act to ensure that contractors are held accountable for providing employees that
meet the minimum requirements established in the contract. This is a recurring issue
for PBGC – in our prior semiannual report, we noted that our review of three PBGC
contractors showed that 7 of 25 contract employees reviewed did not meet minimum


                                SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009       13
                            experience requirements and 2 of the 25 did not have the minimum required
                            education. As we work with PBGC to resolve contract audits issued in prior years, we
                            will advocate for PBGC to hold contractors accountable, in accordance with contract
                            terms, when the contractors provide employees that do not meet minimum education
                            and experience requirements.

                            As PBGC moves forward, it is important that the Corporation (1) require contractors
                            to establish effective internal controls to ensure contract compliance and (2) enforce
                            contract provisions when contractors do not provide services as set forth in the
                            contract. PBGC management has emphasized to OIG their view that “contracting
                            officers do not have a duty to enforce each and every term in a contract. They may
                            determine that technical variances with contract terms are not material and have
                            broad discretion for resolving audit findings.” We remain concerned that failure to
                            enforce the terms of the contract may result in PBGC paying for performance at a
                            higher level than it receives and may provide an unfair competitive advantage to
                            the contractors over other potential bidders that do intend to comply with contract
                            provisions. Over time, unfair competitive advantages to one particular contractor
                            may erode future competition, which is contrary to the best interests of PBGC and the
                            Federal government.


                            4.      Business Model

                            PBGC’s business environment is constantly changing, often as a result of external
                            factors such as the current economic crisis. For example, this year PBGC is actively
                            monitoring about 4,000 defined benefit pension plans with approximately 29 million
                            participants to determine the potential for termination and the economic impact
Plan Terminations and       on PBGC, and to negotiate with plan sponsors over pension benefit protection. In
                            recent months, pension plan underfunding has dramatically increased as the value of
Volume of Participants      plan assets has decreased. Plan sponsors are filing for bankruptcy in record numbers.
 in Terminated Plans        Compared to the last several years when the number of pension plan terminations
                            was low, PBGC reported to us that the number of plan terminations and the volume of
  have Significantly        participants in terminating plans has significantly increased.
      Increased
                            Nationwide economic uncertainties affect every component of PBGC. For example,
                            the Insurance Program Operations Department analyzes financial condition and
                            participates in the bankruptcies of a greater number of pension plan sponsors. The
                            Benefits Administration and Payments Department is terminating and trusteeing more
                            single-employer pension plans and paying the benefits of hundreds of thousands
                            more participants and beneficiaries. The Chief Financial Officer’s organizations are
                            assuming responsibility for and investing the assets from those plans. PBGC’s other
                            management organizations must all support the increased workload.

                            Although it is regularly called upon to deal with very large and sophisticated corporate
                            players, PBGC is a relatively small Federal entity charged with the mission of protecting
                            the retirement income of nearly 44 million American workers. PBGC is challenged to
                            adapt the way it does its business to a constantly changing environment — to have


                       14   PBGC OFFICE OF INSPEC TOR GENERAl
the right staff and resources in the right place at the right time. In helping PBGC
respond to the ”Business Model” challenge, OIG conducts work to evaluate PBGC
programs and make recommendations to improve effectiveness and efficiency.

OIG’s Multiemployer Audit Findings May Be Referred to DOl for Enforcement

Currently, PBGC insures about 1,500 multiemployer plans that have roughly 10 million
participants or beneficiaries. When a multiemployer plan depletes its assets, PBGC
provides financial assistance to pay the guaranteed benefits and plan administrative
expenses. During our audits of terminated multiemployer plans, we found that certain
money might have been owed to a plan but, since the private trustees are in place and
the U.S. Department of labor (DOl) has continued oversight jurisdiction, a question
arose about whether PBGC had authority to take any action to enforce collection. So
that we could make effective audit recommendations, we asked PBGC’s Office of the
Chief Counsel to opine on the extent of PBGC’s authority, with respect to terminated
multiemployer plans, to: (1) direct a plan trustee to seek money owed to the plan
or to seek monetary recovery on behalf of these plans, and (2) require the plan to
seek competitive bids for professional service to ensure its administrative costs are
reasonable. PBGC’s Chief Counsel opined that PBGC generally does not have authority
to direct a terminated multiemployer plan to seek repayment of amounts owed to
the plan from a third party – DOl has that enforcement authority. Similarly because
of DOl’s authority, PBGC generally does not have authority to require a plan to take
particular steps to ensure the reasonableness of administrative expenses. Therefore,
we will be referring to the DOl matters for which the terminated multiemployer plan
needs to recover money owed to the plan.

Request from Senate Special Committee on Aging

At the request of Chairman Herb Kohl of the Senate Special Committe on Aging,
we initiated an engagement to evaluate PBGC’s readiness to address the potential
                                                                                              OIG is Evaluating
increase in workload attributable to changes in the economy. Because of economic
stress, there is concern that some large plan sponsors may terminate their defined            PBGC’s Readiness
benefit pension plans. Chairman Kohl asked OIG to evaluate whether “PBGC
                                                                                               to Deal With a
management is taking steps to strategically prepare the Corporation for the possible
influx of such plans and their participants.” We subsequently met with the Committee          Potential Influx of
and outlined our approach to this evaluation. We will report our results in the next
                                                                                              Terminated Plans
semiannual period.


5. Information Technology

PBGC’s mission of protecting and providing pension plan retirement benefits for
over 44 million Americans relies heavily on the effectiveness and security of the
PBGC information systems network. The confidentiality, integrity, and availability of
information for pension benefits are key elements. Information security has been
reported as a significant deficiency in the internal controls report issued as part of
PBGC’s annual financial statements audit (see pages 8-9). Although PBGC has made


                                SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009    15
                         progress in this area, information security improvements are still needed. Through the
                         financial statement audit work in the upcoming period, we will evaluate and report on
                         the Corporation’s actions in addressing the significant deficiencies so that the integrity
                         and privacy of both federal workers’ and pension plan participants’ information are
                         protected.

                         PBGC Contractor Failed to Protect Personally-Identifiable Information

                         The OIG investigated a breach of security incident when an employee of the
Contract Employee        Transportation Security Agency (TSA) contacted PBGC after a flash drive containing
  Lost Personal          Personally Identifiable Information (PII) regarding PBGC participants was found at a
                         Cleveland, Ohio commuter train station parking lot. OIG investigators recovered the
  Data of PBGC           flash drive from the TSA employee and performed an electronic analysis to identify the
                         source of the PII data. Documents stored on the flash drive were traced to a company
   Participants
                         that was under contract with the PBGC. We found that an employee and a supervisor
                         of the company downloaded PBGC PII data to an unauthorized, unencrypted, and non-
                         password protected flash drive and failed to secure the flash drive in a safe location.
                         These actions violated PBGC’s policy to protect sensitive information which is included
                         in the company’s contract. OIG referred the investigative results to PBGC management
                         for action.


                         Other OIG Reporting
                         Access to Information

                         Under the Inspector General Act, the Inspector General is to have unfettered access
                         to all agency records, information, or assistance when engaged in an investigation
                         or audit. Whenever access to requested records, information, or assistance is
                         unreasonably refused or not provided, the Inspector General must promptly report the
                         denial to the agency head.

                         During this six month reporting period, the Inspector General’s access to information
                         and assistance was not restricted.

                         Management Decisions

                         The Inspector General is required to report the following about management decisions
                         on audit reports that occurred during this six-month period:

                           • There are 8 audit reports for which management decisions are pending (see
                             Appendix, page 24).
                           • There were no significantly revised management decisions.
                           • Details of management decisions with which the Inspector General disagrees are
                             provided on pages 13-14 of this report.




                    16   PBGC OFFICE OF INSPEC TOR GENERAl
Other Office of Inspector 

General Activities
Review of Proposed Statutory and Regulatory Changes
Statutes

A major responsibility of the OIG under the Inspector General Act is the independent
review of PBGC-proposed changes to laws and regulations. There were no significant
PBGC statutory proposals this period.

Regulations

PBGC continues in a major effort to streamline its regulations and to improve
administration of the pension insurance program, with a focus on making pension-
related information more accurate, complete and transparent. PBGC continues to
develop regulations to implement the Pension Protection Act of 2006, including
terminations of hybrid defined benefit pension plans, such as cash balance plans.
PBGC also issued a proposed rule to implement the Uniformed Services Employment
and Reemployment Rights Act of 1994. We reviewed, provided written comments, and
had substantive conversations with the drafters of these proposed rules.


Congress Examines Inspector General Independence
On March 25, 2009, Chairwoman Diane E. Watson of the Subcommittee for
Government Management, Organization, and Procurement of the House Committee                   Independence is
on Oversight and Government Reform held a hearing on the roles and responsibilities
                                                                                              the Foundation
of certain Inspectors General. The five Inspectors General affected by HR 885 –
PBGC, the Board of Governors of the Federal Reserve, Commodities Futures Trading              of the Inspector
Commission, National Credit Union Administration, and the Securities and Exchange
                                                                                                General Act
Commission - were either invited to testify or submit statements for the record. Our
Inspector General, Rebecca Anne Batts, submitted a statement emphasizing that
independence is the foundation of the IG Act. Independence is fostered through an
OIG’s independent determination of the audits and investigations to be performed,
the prohibition on agency interference, the dual reporting structure to Congress and
to the PBGC Board, budget transparency, full law enforcement authority, and pay
parity with agency executives. She offered other ideas for Congressional consideration
that would enhance Inspector General independence, such as:

 • Requiring the agency head to address identified deficiencies or to certify to
   Congress that no action is necessary.




                               SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009     17
                             • Providing authority for OIG to employ rehired annuitants without employee
                               reduction in annuities.
                             • Authorizing the issuance of testimonial subpoenas.


                           We are continuing to meet with Congressional staff to develop proposals to positively
                           impact Inspector General independence.
  Special Agent-in-

  Charge Mentored
                           Other Activities
Investigators at FLETC
                           Special Agent-in-Charge Provides FlETC Support

                           During the months of November and December 2008, OIG’s Special Agent-in-Charge
                           (SAC) served as a course facilitator for the Federal law Enforcement Training Center’s
                           (FlETC) Inspector General Academy Basic Non-Criminal Investigator Training Program
                           in Glynco, Georgia. FlETC has found that having an experienced senior agent to
                           mentor a small group of investigators during their training, makes the investigators
                           more successful. Our SAC served as a field supervisor, trainer and liaison for a group
                           of administrative investigators from several Federal agencies. The course is designed
                           to improve investigative techniques in areas such as interviewing, employee’s rights,
                           union representation and civil and criminal procedures.

                           Participation in Professional Organizations

                           In addition, various staff members participated in external and internal professional
                           activities. Examples include:

                             • The IG participates in the new consolidated Council of Inspectors General for
                               Integrity and Efficiency (CIGIE) that promotes inspector general collaboration on
                               integrity, economy, and efficiency issues that transcend individual agencies. She
                               serves as a member of the CIGIE Audit and Information Technology Committees.
                               In the Federal Financial Regulatory Inspectors General group, she joins with other
                               IGs to discuss common financial concerns and the work each is doing.
                             • The Assistant IG for Investigations (AIGI) participated with the AIGIs from the
                               Department of Agriculture and National Science Foundation in planning the 2009
                               AIGI Annual Training conference in Cape May, New Jersey. The training conference
                               provides an opportunity for AIGIs responsible for conducting investigations
                               throughout the Federal government to network, participate in training, and
                               discuss issues that impact the investigators in the Inspector General community.
                               Agenda topics for this year’s conference included a presentation on the
                               implementation and plans of the newly established CIGIE, an investigations best
                               practices panel, and a presentation from the Georgetown Public Policy Institute on
                               the interaction of OIGs with Congress.




                      18   PBGC OFFICE OF INSPEC TOR GENERAl
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAl ACT

The table below cross-references the reporting requirements prescribed by the
Inspector General Act of 1978, as amended, to the specific pages in the report where
they are addressed.

Inspector General
Act Reference             Reporting Requirements                             Page
Section 4(a)(2)           Review of legislation and regulations.             17
Section 5(a)(1)           Significant problems, abuses, and deficiencies.    5-16
Section 5(a)(2)           Recommendations with respect to significant        5-16
                          problems, abuses, and deficiencies.
Section 5(a)(3)           Prior significant recommendations on which         25
                          corrective action has not been completed.
Section 5(a)(4)           Matters referred to prosecutorial authorities.     10, 20
Section 5(a)(5)           Summary of instances in which information          16
                          was refused.
Section 5(a)(6)           list of audit reports by subject matter, showing 21
                          dollar value of questioned costs and
                          recommendations that funds be put to better use.
Section 5(a)(7)           Summary of each particularly significant report.   5-16
Section 5(a)(8)           Statistical table showing number of reports and    21
                          dollar value of questioned costs.
Section 5(a)(9)           Statistical table showing number of reports and    21
                          dollar value of recommendations that funds be
                          put to better use.
Section 5(a)(10)          Summary of each audit report issued before this   22-23
                          reporting period for which no management
                          decision was made by end of the reporting period.
Section 5(a)(11)          Significant revised management decisions.          16
Section 5(a)(12)          Significant management decisions with which        16
                          the Inspector General disagrees.




                   SEMIANNUAl REPORT OF THE INSPEC TOR GENERAl—MARCH 2009         19
SUMMARY OF AUDIT AND INVESTIGATIVE ACTIVITIES
For the Six-Month Period Ending March 31, 2009

Audit Reports Issued
    Number of Reports                                              4
    Number of Recommendations                                     21
Management Decisions
   Open Recommendations Beginning of Period                      152
   Opened this Period                                             21
   Closed This Period                                             43
   Open Recommendations End of Period                           1301

    Reports with Open Recommendations End of Period               30
Investigations
    Pending Beginning of Period                                   17
    Opened                                                         9
    Closed                                                         9
    Pending End of Period                                         17
Complaints2
   Pending Beginning of Period                                    18
   Opened                                                         52
   Closed                                                         50
   Pending End of Period                                          20
Financial Recoveries2
    Theft of Funds Recovered                                $31,000
    Court Ordered Fines, Penalties, and Restitution              $0
    U.S. Government Property Recovered                       $1,200
Criminal Actions2
    Arrests                                                        1
    Indictments                                                    0
    Convictions                                                    0
Administrative Actions3
   Terminations                                                    0
    Suspensions                                                    1
   Oral or Written Reprimand                                       1
Referrals
    For Prosecution:
        Department of Justice                                      2
           Declined                                                2
        Various States’ Attorney Offices                           0
           Declined                                                0
    For Other Action:
          PBGC Management for Corrective Action                    4
     1
      After the close of the Semiannual Period, PBGC and the OIG identified one additional open recommendation, for a
       total of 131.
     2
      Complaints include allegations received through the hotline operation and issues resulting from proactive
       investigative efforts.
     3
      Results reported for Financial Recoveries, Criminal, and Administrative Actions include both open and closed cases.

                     20         PBGC OFFICE OF INSPECTOR GENERAl
RESUlTS OF REPORTS ISSUED
For the Six-Month Period Ending March 31, 2009
                                                             Number            Questioned      Unsupported       Funds Put to
                                                            of Reports               Costs        Costs2          Better Use
 A. For which no management decision had                            111        $2,159,960             $25,405                 $0
    been made by the commencement of the
    reporting period.
 B. Which were issued during the reporting period.                    4
      Pension Benefit Guaranty Corporation’s FY 2008                                     $0                 $0                $0
        and 2007 Financial Statements, 2009-1/FA­
        08-49-1 (11/13/08)
      Report on Internal Controls Related to the                                         $0                 $0                $0
        Pension Benefit Guaranty Corporation’s FY
        2008 and 2007 Financial Statements Audit,
        2009-2/FA-08-49-2 (11/13/2008)
      Pension Benefit Guaranty Corporation’s FY                                          $0                 $0                $0
        2008 and 2007 Special-Purpose Financial
        Statements, 2009-3/FA-08-49-3 (11/17/2008)
      FY 2008 Financial Statements Audit
                                                                                         $0                 $0                $0
         Management letter, 2009-3/FA-08-49-4
         (01/15/2009)

 Total                                                                4

        Subtotal (Add A. & B.)                                       15        $2,159,960             $25,405                 $0

 C. For which a management decision was made                         73          $248,152                   $0                $0
    during the reporting period.

        (i) dollar value of disallowed costs                                       $51,467                  $0                $0

       (ii) dollar value of costs not disallowed                                 $196,685             $21,164                 $0

 D. For which no management decision had been                         8        $1,911,808              $4,241                 $0
    made by the end of the reporting period.
 E. For which no management decision was made                         8        $1,911,808              $4,241                 $0
    within six months of issuance.

 1
     Number of reports and dollar amounts revised from the last semiannual period to remove CCRD’s contract reviews and
      questioned costs.
 2
     Unsupported costs are a subset of questioned costs.

 3
     Management decisions were made on 3 of the 7 reports at the end of the reporting period; disagreements, if any, with 

     amounts not disallowed will be reported in the next semiannual report.




                                 SEMIANNUAl REPORT OF THE INSPECTOR GENERAl—MARCH 2009                21
SUMMARY OF REPORTS OlDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED

                                                                                                     Anticipated
 Report and Summary                                       Reason For No Management Decision          Management
                                                                                                      Decision
 Incurred Cost Audit, 2005-11/CA-0004 (2/22/05)                                                       9/30/2009
                                                          Due to an oversight, this audit was not
Questioned Costs of $10,414 for use of billing rates that reviewed in a timely manner and PD is
differed from the fixed rates contained in the contract actively reviewing this matter to avoid
and use of a markup on the questioned costs.              further delays.
 Examination of Contract Termination Proposal,                                                       Prior to next
   2006-14/CA-0013 (9/27/06)                              Subsequent to the close of this
                                                          semiannual period, PBGC combined
Questioned Costs of $197,035 because the contractor       these two audits of the same
did not effectively manage its employees and allowed      contractor and issued a final decision
idle time to be billed as a direct expense.               letter determining to pursue collection
                                                          of $38,960 of the total $343,663 in
                                                          questioned costs. Documentation of
 Incurred Cost Audit, 2006-16/CA-0013 (9/27/06)
                                                          the decisions will be provided to OIG in
                                                          the near future.
Questioned Costs of $146,628 for unallowable
costs associated with the use of the actual indirect
rates instead of the forward pricing indirect rates;
unallowable facility costs; and unsupported purchased
labor costs.

 Incurred Cost Audit, 2007-5/CA-0028 (3/19/07)                                                        6/30/2009
                                                    Subsequent to the close of this
                                                    semiannual period, PBGC issued a final
Questioned Costs of $475,896 because of unsupported decision letter determining to pursue
labor hour billings; questionable experience and    collection of $6,906. Documentation of
education of contract employees; improper billings; the decision has been provided to OIG.
and erroneous time charges.




                     22        PBGC OFFICE OF INSPEC TOR GENERAl
SUMMARY OF REPORTS OlDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED

                                                                                                Anticipated
 Report and Summary                                    Reason For No Management Decision        Management
                                                                                                 Decision
 Incurred Cost Audit, 2007-13/CA-0038-1 (9/27/07)                                                9/30/2009
                                                      Subsequent to the close of this
                                                      semiannual period, PBGC treated these
Questioned Costs of $533,081 because of unsupported two audits of the same contractor
labor hour billings; unsigned timesheets; erroneous   together and issued a final decision
and unapproved billings; and unverified education and letter determining to pursue collection
experience for contract employees.                    of $115,773 relating to $291,138
                                                      in questioned costs. Action on the
  Incurred Cost Audit, 2007-14/CA-0038-2 (9/27/07) remaining 8 recommendations with
                                                      questioned costs totaling $355,725 is
                                                      pending.
Questioned Costs of $113,782 because of unsupported
documentation for labor hour billings; erroneous and
unapproved billings; and unverified education and
experience for contractor employees.
  Incurred Cost Audit, 2007-15/CA-0039 (9/27/07)                                                 9/30/2009
                                                      Management continues to review this
                                                      report and the amounts questioned.
Questioned Costs of $337,391 related to unsupported
costs; erroneous and unapproved billings; and
unverified education and experience for contractor
employees.

 Incurred Cost Audit, 2008-09/CA-0054 (9/30/2008)                                                8/31/2009
                                                       Management decision is pending
                                                       as it awaits DCAA’s completion of its
Questioned Costs of $97,581 for unallowable costs      incurred cost audit and settlement of
associated with the use of unaudited indirect cost     indirect cost rates.
rates.




                             SEMIANNUAl REPORT OF THE INSPEC TOR GENERAl—MARCH 2009       23
PREVIOUSlY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPlETED

                                        Number of
Report Number, Report Title and                                Significant Problems Summary of Significant
                                        Significant
Date Issued                                                    and Deficiencies     Recommendations
                                        Recommendations
96-4/23093-2                                                   Significant             PBGC needs to complete the
Audit of the Pension Benefit                                   Deficiency:             integration of its financial
Guaranty Corporation’s Fiscal                                  Integrating             management systems.
Year 1995 Financial Statements                    1            Financial
03/13/1996                                                     Management
                                                               Systems

2003-3/23168-2                                                 Signficant              PBGC needs to complete its
Audit of the Pension Benefit                                   Deficiency:             efforts to fully implement and
Guaranty Corporation’s Fiscal Years                            Entity-Wide             enforce an effective information
2002 - 2001 Financial Statements                               Information             security program.
01/30/2003                                                     Security Program
     and                                                       Planning &
                                                  5
AUD-2008-2/ FA-09-0034-2                                       Management
limited Disclosure Report on
Internal Controls - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007

2003-10/23177-2                                                Control weaknesses      PBGC needs to ensure that its
Review of PBGC’s Premium                                       that undermine          automated system produces
Accounting System                                              the quality and         accurate and verifiable
                                                  3
10/10/2003                                                     integrity of reported   premium accounting data.
                                                               premium revenues.

2008-1/FA-0034-1                                               Significant             PBGC needs to mitigate the
Audit of the Pension Benefit                                   Deficiency:             systemic issues related to
Guaranty Corporation’s Fiscal Years                            Access Contols          information access controls.
2007 - 2006 Financial Statements
11/15/2007
      and
                                                 13
AUD-2008-2/ FA-09-0034-2
limited Disclosure Report on
Internal Controls - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007

This chart complies with Section 5(a)(1), (2) and (3) of the Inspector General Act of 1978, as amended.




                     24        PBGC OFFICE OF INSPEC TOR GENERAl
        If   you want to report or dIscuss

          confIdentIally any Instance of

mIsconduct, fraud, waste, abuse, or mIsmanagement,

                   please contact

         the   offIce   of Inspector   general.

                     telephone:

       the Inspector general’s hotlIne

                  1-800-303-9737

           the deaf or hard of hearIng, 

             dIal frs (800) 877-8339

           and gIve the hotlIne number

                to the relay operator.

                        web:

   http://oIg.pbgc.gov/InvestIgatIon/detaIls.html

                     or wrIte:

     pensIon benefIt guaranty corporatIon

           offIce of Inspector general

                   po box 34177

          washIngton, dc 20043-4177

